Neutral
As of: January 11, 2020 1:49 AM Z

Kimbrough v. Neal
United States Court of Appeals for the Seventh Circuit
September 10, 2019, Argued; October 24, 2019, Decided
Nos. 18-3145 - 18-3153
Reporter
941 F.3d 879 *; 2019 U.S. App. LEXIS 31792 **; 2019 WL 5445310

JOHN W. KIMBROUGH, PetitionerAppellee/Cross-Appellant, v. RON NEAL,
Respondent-Appellant/Cross-Appellee.

Prior History: [**1] Appeals from the
United States District Court for the Southern
District of Indiana, Indianapolis Division. No.
1:16-cv-1729 - William T. Lawrence, Judge.
Kimbrough v. State, 979 N.E.2d 625, 2012
Ind. LEXIS 993 (Ind., Dec. 19, 2012)

justification that there was an error well
understood and comprehended in existing
law beyond any possibility for fair-minded
disagreement.

Outcome
Judgment reversed.

LexisNexis® Headnotes

Core Terms
sentence, state law, inappropriate, appellate
counsel, federal law, district court,
ineffective, Counts

Case Summary
Overview
HOLDINGS: [1]-The district court erred in
granting the petition for a writ of habeas
corpus because petitioner did not show that
the state court unreasonably applied federal
law on his ineffective-assistance-of-counsel
claim; under AEDPA's deferential standard,
the state court decision was not so lacking in

Criminal Law &
Procedure > Counsel > Effective
Assistance of Counsel > Tests for
Ineffective Assistance of Counsel
HN1[ ]
Effective
Assistance
of
Counsel,
Tests
for
Ineffective
Assistance of Counsel
To establish ineffective assistance of counsel
under Strickland, a defendant must show:
(1) counsel rendered deficient performance
that (2) prejudiced the defendant.

Criminal Law &
Procedure > ... > Standards of

Page 2 of 5
Kimbrough v. Neal

Review > Contrary & Unreasonable
Standard > Contrary to Clearly
Established Federal Law
HN2[ ]
Contrary
&
Standard,
Contrary
Established Federal Law

Unreasonable
to
Clearly

When a case falls under 28 U.S.C.S. §
2254(d)(1), a federal court reviews a state
court decision de novo to determine the
legal question of whether the decision is
contrary to clearly established federal law.
The federal court considers the last
reasoned opinion on the claim. The
petitioner must show the state court
decision was so lacking in justification that
there was an error well understood and
comprehended in existing law beyond any
possibility for fair-minded disagreement. It
is a difficult and highly deferential standard.

Counsel: For JOHN W. KIMBROUGH (183145, 18-3153), Petitioner - Appellee:
Michael Ausbrook, Attorney, Bloomington,
IN.
For RON NEAL (18-3145, 18-3153),
Respondent - Appellant: Chandra Hein,
Attorney, Thomas M. Fisher, Attorney, Kian
James Hudson, Attorney, Julia Catherine
Payne, Esq., Attorney, OFFICE OF THE
ATTORNEY GENERAL, Indianapolis, IN.

Judges: Before WOOD, Chief Judge, and
KANNE and BRENNAN, Circuit Judges.

Opinion by: BRENNAN

Opinion

[*880]
BRENNAN, Circuit Judge. John
Kimbrough was convicted in Indiana state
court of molesting two young girls on
multiple occasions. The trial court sentenced
Kimbrough to 80 years in prison, which was
ultimately affirmed on appeal. Kimbrough
sought post-conviction relief based on
ineffective assistance of appellate counsel.
Specifically, Kimbrough cited his attorney's
failure to object to his 80-year sentence
under Indiana Appellate Rule 7(B), which
allows an appellate court to revise an
inappropriate sentence.
The Indiana Court of Appeals rejected
Kimbrough's ineffective assistance claim,
concluding as a matter of state law that he
was not entitled to relief. The district [**2]
court disagreed and granted Kimbrough's
petition for a writ of habeas corpus. Because
a federal court considering a habeas petition
under 28 U.S.C. § 2254(d) cannot disagree
with a state court's resolution of a state law
issue, we reverse.
I. BACKGROUND
Kimbrough dated the mother of a five-yearold daughter, a seven-year-old daughter,
and a son with cerebral palsy. Eventually,
the daughters revealed Kimbrough had
molested them for nearly two years. The
State of Indiana charged Kimbrough with
four counts of child molestation. The jury
found Kimbrough guilty on all counts.
Kimbrough was sentenced to 40 years on
each count. Counts I and II were ordered to
be served concurrently. Counts III and IV
were also ordered to be served concurrently
but consecutive to Counts I and II, for a
total of 80 years. When imposing the
sentence, the state judge considered the
nature of Kimbrough's conduct, his lack of
criminal history, and Kimbrough's abuse of a
position of trust.
On direct appeal, Kimbrough argued the
evidence was insufficient to sustain his
conviction, the trial court's jury instructions
were erroneous, and the trial court abused
its discretion in imposing the 80-year

Page 3 of 5
Kimbrough v. Neal

sentence.
Notably,
Kimbrough's
appellate [**3] counsel never challenged
his sentence under Indiana Appellate Rule
7(B), which allows the court to "revise a
sentence [if] the Court finds that the
sentence is inappropriate in light of the
nature of the offense and the character of
the offender." Ind. App. R. 7(B). Although
the Indiana Court of Appeals rejected some
of his arguments, a split panel did sua
sponte reduce his sentence to 40 years
1
under Rule 7(B). Kimbrough v. State, 965
N.E.2d 773, 2012 Ind. App. Unpub. LEXIS
358, 2012 WL 983147, at *5 (Ind. Ct. App.
2012)
("Kimbrough I"). The Indiana
Supreme Court vacated Kimbrough I,
holding Rule 7(B) should not have been
invoked sua sponte. Kimbrough v. State,
979 N.E.2d 625, 629-30 (Ind. 2012)
("Kimbrough II").
Kimbrough then sought post-conviction
relief in the Indiana trial court, arguing his
appellate counsel was ineffective for failing
to challenge the 80-year sentence under
Rule 7(B). The trial court denied his request,
as did the Indiana Court of Appeals, which
concluded, "if the [Kimbrough I] majority
had engaged in a full Rule 7(B) analysis with
the benefit of argument and analysis from
the State, it would not have found
Kimbrough's
sentence
inappropriate."
Kimbrough v. State, 45 N.E.3d 66, 2016
Ind. App. Unpub. LEXIS 5, 2016 WL 112394,
at
*5
(Ind.
Ct.
App.
2016)
("Kimbrough [*881] III"). In Kimbrough
III, the court stated further: "Kimbrough has
not established that there is a reasonable
probability that, if appellate counsel had
made a Rule 7(B) challenge, the result of
the proceeding would have been different."
Id. Because Kimbrough [**4] was not

1

While the majority presumably rested its decision on
Rule 7(B), it did not expressly cite that rule and
reviewed the case for an abuse of discretion. The
dissent considered the case as if it was decided under
that rule, concluding that a Rule 7(B) argument should
be rejected because Kimbrough was not entitled to a
revision of his sentence given the nature of his crimes
and his failure to assert the rule.

entitled to relief under Rule 7(B), he failed
to establish prejudice. Kimbrough then
petitioned for transfer to the Indiana
Supreme Court. His petition was denied.
As a last resort, Kimbrough sought a writ of
habeas corpus from the district court,
arguing his appellate counsel was ineffective
under Strickland v. Washington, 466 U.S.
668, 104 S. Ct. 2052, 80 L. Ed. 2d 674
(1984), for failing to challenge his sentence
as inappropriate under Indiana Rule 7(B).
HN1[ ] To establish ineffective assistance
of counsel under Strickland, a petitioner
must show: (1) counsel rendered deficient
performance that (2) prejudiced the
petitioner. 466 U.S. at 687. Granting
Kimbrough's petition, the district court found
that
the
court
in
Kimbrough
III
unreasonably applied Strickland when it
concluded Kimbrough was not prejudiced by
counsel's performance. The district court
compared the opposite conclusions in
Kimbrough I and Kimbrough III and held
that "[b]ecause two panels of the Indiana
Court of Appeals utilized their discretion to
reach opposite conclusions," Kimbrough
necessarily had a reasonable probability of
success on a Rule 7(B) argument and had
satisfied Strickland's prejudice prong. The
state appealed.
II. DISCUSSION
The "pivotal question" here is whether the
court in Kimbrough III unreasonably applied
Strickland [**5] .
See
Harrington
v.
Richter, 562 U.S. 86, 101, 131 S. Ct. 770,
178 L. Ed. 2d 624 (2011). Because the
Indiana Court of Appeals addressed whether
Kimbrough has established prejudice, we
must decide whether that state court's
decision "was contrary to, or involved an
unreasonable
application
of,
clearly
established Federal law, as determined by
the Supreme Court of the United States."
Antiterrorism and Effective Death Penalty
Act ("AEDPA"), 28 U.S.C. § 2254(d)(1).
HN2[ ] When a case falls under §
2254(d)(1), we review the state court

Page 4 of 5
Kimbrough v. Neal

decision de novo to determine the legal
question of whether the decision is contrary
to clearly established federal law. See Denny
v. Gudmanson, 252 F.3d 896, 900 (7th Cir.
2001); see also Morris v. Bartow, 832 F.3d
705, 709 (7th Cir. 2016) ("We review de
novo the district court's treatment of legal
issues, and we review findings of fact for
clear error."). We consider the "last
reasoned opinion on the claim," here the
decision of the Indiana Court of Appeals in
Kimbrough III. See, e.g., Woolley v.
Rednour, 702 F.3d 411, 421 (7th Cir. 2012).
As the last reasoned opinion on the claim,
Kimbrough III is entitled to AEDPA
deference.
Because Strickland requires Kimbrough to
show a reasonable probability that he would
have obtained relief if his counsel had raised
a Rule 7(B) argument, the Rule 7(B) inquiry
underlies the Strickland analysis. Kimbrough
must show the Indiana Court of Appeals
decision was "so lacking in justification that
there was an error [**6] well understood
and comprehended in existing law beyond
any
possibility
for
fair-minded
disagreement." Harrington, 562 U.S. at 103.
This is a "difficult" and "highly deferential"
standard. Id. at 105.
Kimbrough argues the state court's decision
in Kimbrough III unreasonably applied
federal law. But the Indiana Court of
Appeals decision was not based on federal
law. It rests on the conclusion that, as a
matter of state law, it [*882] would have
been futile to contest the sentence's length
on appeal because the 80-year sentence is
not "inappropriate in light of the nature of
the offense and the character of the
offender." Kimbrough III, 45 N.E.3d 66,
2016 Ind. App. Unpub. LEXIS 5, 2016 WL
112394, at *4-5. For federal habeas relief
here under § 2254(d)(1), the state court's
decision
must
be
an
unreasonable
application of federal law—not a state
court's resolution of a state law issue. See,
e.g., Bradshaw v. Richey, 546 U.S. 74, 76,
126 S. Ct. 602, 163 L. Ed. 2d 407 (2005)
("We have repeatedly held that a state

court's interpretation of state law ... binds a
federal court sitting in habeas corpus.");
Estelle v. McGuire, 502 U.S. 62, 67-68, 112
S. Ct. 475, 116 L. Ed. 2d 385 (1991)
("Today, we reemphasize that it is not the
province of a federal habeas court to
reexamine state-court determinations on
state-law questions."); Miller v. Zatecky,
820 F.3d 275, 277 (7th Cir. 2016) ("A
federal court cannot disagree with a state
court's resolution of an issue of state law.").
This case is nearly identical to Miller v.
Zatecky, which Kimbrough [**7] asks this
court to overrule. In this case and Miller, the
petitioner raised a Strickland claim due to
appellate counsel's failure to raise an
Indiana Rule 7(B) argument. In each case,
the Indiana Court of Appeals rejected the
claim because the petitioner failed to
establish
that
his
sentence
was
inappropriate under Rule 7(B) and would
have been reduced if appellate counsel had
raised the Rule 7(B) issue on direct appeal.
Compare Miller v. State, 985 N.E.2d 371,
2013 Ind. App. Unpub. LEXIS 377, 2013 WL
1210524, at *6 (Ind. Ct. App. 2013), with
Kimbrough III, 45 N.E.3d 66, 2016 Ind. App.
Unpub. LEXIS 5, 2016 WL 112394, at *5.
Neither case was based on federal law. Like
Miller, Kimbrough III "rests on a conclusion
that, as a matter of state law, it would have
been futile to contest the sentence's length
on appeal, because a 120-year sentence
[here, an 80-year sentence] is not
'inappropriate in light of the nature of the
offense and the character of the offender.'"
Miller v. Zatecky, 820 F.3d at 277. The
Indiana Court of Appeals' conclusion that
appellate review of Kimbrough's sentence
would not have helped him as a matter of
state law is "the sort of decision § 2254
leaves to the state judiciary." Id. Miller
controls, and Kimbrough has not provided a
compelling reason to overrule it.
Kimbrough argues Miller cannot coexist with
Shaw v. Wilson, 721 F.3d 908 (7th Cir.
2013), and Jones v. Zatecky, 917 F.3d 578
(7th Cir. 2019). In those cases, this court
granted habeas relief based on the

Page 5 of 5
Kimbrough v. Neal

attorneys' failure to object to untimely
amendments [**8] to their charges under
Indiana law. We were concerned with
Indiana attorneys ignoring the clear text of
the Indiana statute and allowing prosecutors
to make untimely amendments. Jones, 917
F.3d at 580. That is not the situation here.
Neither Shaw nor Jones reviewed a state law
determination of the post-conviction court.
See Shaw, 721 F.3d at 918 ("[W]e are not
resolving any issue of state law."); Jones,
917 F.3d at 583 ("Jones's case does not
require us to resolve any question of state
law."). Indeed, Shaw and Jones confirm we
are bound by the state court's resolution of
a state law question. See Shaw, 721 F.3d at
914; Jones, 917 F.3d at 581-83. We find no
conflict between these cases and decline to
overrule Miller.
Kimbrough has not shown the Indiana Court
of Appeals unreasonably applied federal law.
Under the AEDPA's deferential standard, the
court's decision in Kimbrough III was not "so
lacking in justification that there was an
error well understood and comprehended in
existing law beyond any possibility for
fairminded disagreement." Harrington, 562
U.S. at 103.
[*883] III. CONCLUSION
We REVERSE the district court's grant of
Kimbrough's petition for a writ of habeas
2
corpus.

End of Document

2

Case No. 18-3153, Kimbrough's cross-appeal,
challenges whether the district court properly granted
habeas relief by issuing a conditional order requiring
the State of Indiana to either release Kimbrough or
grant him a new appeal. Because Kimbrough is not
entitled to habeas relief, we decline to address his
cross-appeal.

